                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL
                                                OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

TO: AIGI       I   File Number: I90090029                                      I   Date: 02 March 2002

Subject: Closeout Memo
                                                                               ~           Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted fiom the file in conformance with standard closeout documents.

      Our office was informed that the subject' was alleged to have violated current employee restriction.
      We determined that the subject had received conflict of interest advice prior to his marriage to an
      employee of a contractor. There was no wrongdoing.

      Accordingly this case is closed.




               I    Preparedby:   I                   Cleared by:             11
                   Agent:             Attorney:     Supervisor:     AIGI
   Name:



 Signature &
    date:
